CLD-124
JAMES E. NOTTINGHAM, Appellant
VS.
SUPERINTENDENT CAMP HILL SCI, ET AL.
20-3423
._______ _______ _________ ORDER

March 18, 2021

_________ _________________ ___ _

We have jurisdiction over the District Court’s November 6, 2020 order denying
Nottingham’s post-judgment motions. See 28 U.S.C. § 1291; Ohntrup v. Firearms Ctr.,
Inc., 802 F.2d 676, 678 (3d Cir. 1986) (per curiam). To the extent that a certificate of
appealability is not required, the District Court’s order entered November 6, 2020, is
summarily affirmed because no substantial question is presented on appeal. See 3d Cir.
L.A.R. 27.4; 3d Cir. I.O.P. 10.6. The District Court did not err in denying Nottingham’s
motions as moot because “the issues presented [were] no longer live [and] the parties
lack[ed] a legally cognizable interest in the outcome.” United Steel Paper & Forestry
Rubber Mfg. Allied Indus. & Serv. Workers Int’l Union AFL-CIO-CLC v. Gov’t of the
Virgin Islands, 842 F.3d 201, 208 (3d Cir. 2016). To the extent that a certificate of
appealability is required, see Harbison v. Bell, 556 U.S. 180, 183 (2009), jurists of reason
would not debate the. District Court’s judgment because, the motions were based on
conclusory allegations and were meritless. See Slack v. McDaniel, 529 U.S. 473, 484
(2000).

o)t
££RTIFIE0 AVRH 2.2. ,20^

page 3,fevthe OticK

2

"A"

ml

By the Court,
s/Paul B. Matey
Circuit Judge
Dated: March 31, 2021
Tmm/cc: James E. Nottingham
Ronald Eisenberg, Esq.

X

Certifoe’dlpU'
of a forcftal imitate

& * -V
y'afid issued in lieu
.* o

April 22, 2021

>*3S

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

3

JAMES E. NOTTINGHAM, et al., Petitioners, v. LAUREL HARRY, Superintendent, et al.,
Respondents.
UNITED STATES DISTRICT COURT FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
2020 U.S. Dist. LEXIS 107688
No. 3:19-CV-01949
June 19, 2020, Decided
June 19, 2020, Filed
____
Editorial Information: Prior History
Nottingham v. Harry, 2020 U.S. Dist. LEXIS 84947 (M.D. Pa., May 13, 2020)
Counsel

{2020 U.S. Dist. LEXIS 1)James E. Nottingham. Petitioner, Pro se,

Camp Hill, PA.
Judges: Matthew W. Brann, United States District Judge. (Magistrate Judge Mehalchick).
Opinion
Opinion by:

Matthew W. Brann
Opinion

ORDER
Petitioners James E. Nottingham and William Haight filed the instant action on November 13, 2019.
It was jointly assigned to the undersigned and to a magistrate judge. Upon designation, a magistrate
judge may "conduct hearings, including evidentiary hearings, and ... submit to a judge of the court
proposed findings of fact and recommendations."1 Once filed, this report and recommendation is
disseminated to the parties who can then object.2
On May 13, 2020, Magistrate Judge Karoline Mehalchick, to whom this matter is jointly assigned,
issued a thorough report and recommendation recommending that the Court dismiss the instant
action for lack of jurisdiction without prejudice to Nottingham's right to seek pre-authorization from the
United States Court of Appeals for the Third Circuit under 28 U.S.C. § 2244(b)(3). Further, Magistrate
Judge Mehalchick recommended that the Court decline to issue a certificate of appealability.3
Nottingham filed objections to the report and recommendation on May 29, 2020.4 When objections
are timely filed, the District Court must{2020 U.S. Dist. LEXIS 2} conduct a de novo review of those
portions of the report to which objections are made.5 Although the standard of review for objections is
de novo, the extent of review lies within the discretion of the District Court, and the Court may
otherwise rely on the recommendations Of the magistrate judge to the extent that it deems proper.6
For portions of the report and recommendation to which no objection is made,, the Court should, as a
matter of good practice, "satisfy itself that there is no clear error on the face of the record in order to
accept the recommendation."? Regardless of whether timely objections are made by a party, the
District Court may accept, not accept, or modify, in whole or in part, the findings or recommendations
made by the magistrate judge.8
Because I write solely for the parties, I will not restate the facts. Instead, I adopt the recitation of facts

lyccases

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

B

’

'«

as set forth by the magistrate judge. I have conducted a de novo review here and found no error.
AND NOW, IT IS HEREBY ORDERED that:
1. Magistrate Judge Karoline Mehalchick's May 13, 2020 Report and Recommendation, Doc. 20,
is ADOPTED in full.
2. Petitioner Nottingham's Petition, Doc. 1, is DISMISSED{2020 U.S. Dist. LEXIS 3} for lack of
jurisdiction.9 This dismissal is without prejudice to Nottingham's right to seek pre-authorization
from the United States Court of Appeals for the Third Circuit.10
3. Petitioner Nottingham's Motion for Leave to Proceed in Forma Pauperis, Doc. 5, is DISMISSED
AS MOOT.
4. The Court declines to issue a certificate of appealability. 11
5. The Clerk of Court is directed to close the case file.
BY THE COURT:
/s/Matthew W. Brann
Matthew W. Brann
United States District Judge

lyccases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

&

-V

